Summary of Terms for
First Progress Secured
Credit Cards (Page 1)
As of 11/15/2019
Interest Rates and
Interest Charges

Platinum Elite
Platinum Select
Platinum Prestige
MasterCard® Secured MasterCard® Secured MasterCard® Secured
Credit Card
Credit Card
Credit Card

These APRs will vary with the market based on the Prime Rate

Annual Percentage
Rate(APR) for Purchases

Prime Rate plus
Margin of 15.24%*

Prime Rate plus
Margin of 9.24%*

Prime Rate plus Margin
of 5.24%*

APR for Cash Advances

Prime Rate plus
Margin of 20.24%*

Prime Rate plus
Margin of 15.24%*

Prime Rate plus Margin
of 14.24%*

Paying Interest

Your payment due date is at least 25 days after the close of each billing cycle. W e
will not charge you interest on purchases if you pay your entire balance by the due
date each month. We will begin charging interest on cash advances on the date of
the cash advance.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.50

Fees
Annual Fee

$29

$39

$49

Transaction Fees
Cash Advance

Either $10.00 or 3% of the amount of each Cash Advance, whichever is greater

Foreign Transactions

3% of the transaction amount

Penalty Fees
Late Payment

Up to $39 ($40 effective January 1, 2020)

Returned Payment

Up to $28 ($29 effective January 1, 2020)

How We Will Calculate Your Balance: We use a method called “daily balance”. See the Cardholder Agreement for more details.

FPPT-010516-111519

